<html>
<title> - HUMAN RIGHTS ABUSES BY VIETNAMESE AUTHORITIES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                        HUMAN RIGHTS ABUSES BY 
                         VIETNAMESE AUTHORITIES

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 17, 2015

                               __________

                           Serial No. 114-84

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-130 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
















                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS, Tennessee          AMI BERA, California
DANIEL DONOVAN, New York


















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Nguyen Van Hai (Dieu Cay), writer, Free Journalists Club of 
  Vietnam........................................................     6
Mrs. Doan Thi Hong-Anh (wife of a torture victim)................    11
Nguyen Dinh Thang, Ph.D., executive director, Boat People SOS....    16
The Reverend Nguyen Manh Hung, Vietnam Interfaith Council........    26

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Nguyen Van Hai (Dieu Cay): Prepared statement................     9
Mrs. Doan Thi Hong-Anh: Prepared statement.......................    14
Nguyen Dinh Thang, Ph.D.: Prepared statement.....................    19
The Reverend Nguyen Manh Hung: Prepared statement................    28

                                APPENDIX

Hearing notice...................................................    40
Hearing minutes..................................................    41
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations:
  Photographs of sheds for storing funeral objects and victims of 
    associated violence..........................................    42
  Photographs of police brutality against people of faith........    47

 
             HUMAN RIGHTS ABUSES BY VIETNAMESE AUTHORITIES

                              ----------                              


                        WEDNESDAY, JUNE 17, 2015

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:21 p.m., in 
room 2200 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order, and let me 
begin first by expressing my apologies for being late in 
convening the hearing.
    There has been a number of crises today. One of them is in 
Ghana. As you know, this subcommittee is Africa, Global Health, 
Global Human Rights, and International Organizations and they 
have had serious floods. So we have been working with the 
Ambassador from Ghana to try to ensure that sufficient funding 
for those victims is provided.
    So I pushed back the schedule a bit so I express my 
apologies to our witnesses as well as to our friends in the 
audience. I am truly sorry.
    Let me begin with some opening comments, and Karen Bass is 
on her way as well as some of the other members of the 
subcommittee.
    I would like to begin by recognizing the distinguished 
Vietnamese-American leaders who are visiting Washington to 
discuss with Members of Congress issues of concern to the 
community including issues of freedom and human rights in 
Vietnam.
    Our former colleague, Anh Cao, is here. Anh was the first 
Vietnamese-American to be elected to Congress, did yeoman's 
work in Boat People SOS, as Dr. Thang notes so well.
    I met him many, many years ago, a very distinguished Member 
of Congress. There was no greater advocate for the people of 
Vietnam past, present or, I would say respectfully, into the 
future--certainly, past and present than Anh was.
    He was tenacious on human rights in general but when it 
came to Vietnam no one cared more and did more on this side as 
opposed to our witnesses in civil society.
    So I want to thank you for that leadership. Also Ambassador 
Joseph Rees, who used to be staff director and has served in a 
number of capacities at the U.S. Department of State.
    Ambassador Rees, as I think many of you know, was our first 
Ambassador to East Timor when that nation became an independent 
nation, and frankly, it was Joseph working with Dr. Thang in 
the mid-1990s when the boat people were being denied access to 
the United States and were housed--is probably the euphemism 
for the way they were being treated--they were incarcerated 
throughout all of Asia including in a prison in Hong Kong and 
were being forcibly repatriated.
    It was Joseph, especially as the former general counsel for 
the INS, who helped lead the way along with Dr. Thang.
    We had four important pivotal hearings about the 
Comprehensive Plan of Action put forward by the Clinton 
administration to forcibly repatriate Vietnamese to Vietnam, 
many of whom would go to reeducation camps and to prison.
    And as a result of that, I offered an amendment on the 
floor from what we gleaned from all of that information and we 
put a stop, a tourniquet, to that terrible forcible 
repatriation.
    And the ROVR Program then came into existence and something 
on the order of 20,000 Vietnamese made their way to the United 
States. It is because of that and if it wasn't for Dr. Thang 
and Ambassador Rees, that would not have happened. So I want to 
recognize them and thank them for that extraordinary 
leadership.
    The Vietnamese-American community is celebrating its 40th 
year in the United States--those who came after the fall of 
Saigon, and of course we all remember the helicopters and the 
last few who made it.
    My own in-laws are Vietnamese-American; my son is married 
to a Vietnamese-American young lady who is about to have her 
second child. They left during the 1975 exodus. They were the 
lucky ones who were not part of the boat people exodus.
    And I just want to say how much all of us in Congress, both 
sides of the aisle, so deeply respect the contributions that 
have been made by the Vietnamese Americans to this country.
    Very, very strong patriots, men and women who are 
hardworking have really made their mark on this country and 
have cared so deeply for their families and for their relatives 
and, of course, for all other Americans. Thank you for that. It 
is very, very important.
    This subcommittee has held numerous hearings on human 
rights in Vietnam over the years and we have discussed a range 
of concerns from restrictions on religious freedom, to the 
jailing and torture of dissidents, from sex and labor 
trafficking, to the censorship of the press and the Internet.
    The Vietnamese Government and Communist Party continue to 
be one of the worst abusers of human rights. We may want to 
sweep that reality under the table and many do, sadly. We may 
want to paper over it by promises of security cooperation and 
trade deals.
    But that reality stares us in the face and requires us to 
ask whether U.S. policy really serves the people of Vietnam, 
people who want our liberties and our freedoms as much as our 
trade.
    The U.S. Government must continue to press the Vietnamese 
Government on truly fundamental human rights issues, not only 
in human rights dialogues, which very often are dead-end 
streets, maybe they ought to be done, but in all meetings with 
Vietnamese officials, especially the trade meetings and that 
means that the highest levels from the United States President 
on down.
    It can't be a sidebar issue. It can't be something that's 
in the appendix that is brought up in a cursory way so the 
President can say, ``Oh, I raised human rights.'' He needs to 
raise it, especially with the upcoming visit, with specificity.
    Talk about individuals who are being incarcerated for their 
faith or because of their democracy activism and say we want 
these people released. The President needs to do that and he 
needs to do it when he meets with the head of party coming very 
shortly from Vietnam.
    Sixty-six percent of the Vietnamese population is under 35 
and some don't even remember the war except from history and 
from news reels. They want their lives to look like those of 
their Vietnamese cousins in the U.S., in Australia, as well as 
in Canada.
    Our policies cannot be directed at the Vietnamese elite in 
the Communist Party but must focus on the people of Vietnam. 
What are in their best interests? Not the ruling clique who 
suppress.
    They understand that if the U.S. sides with the Vietnamese 
Government, they will only receive crumbs from the Communist 
Party's table.
    Our economic, security, and freedom interests must be 
linked. The Vietnamese Government needs U.S. security 
cooperation and economic benefits more than the U.S. needs 
Vietnam.
    We have leverage to bring about concrete changes in Vietnam 
and we must not give up, ignore, trivialize, belittle, or 
squander that leverage.
    If human rights issues are not explicitly linked to our 
economic and security interests, we risk having discussions on 
trade and defense moving forward while human rights conditions 
go in the opposite direction, backwards.
    Trade between the U.S. to Vietnam has exponentially 
expanded since Vietnam was granted normal trade relations in 
2000.
    If this expansion is to continue under the Trans-Pacific 
Partnership, I would say, for full disclosure, voted against 
the fast track legislation, believing that human rights have to 
be a centerpiece.
    And I have gone to the so-called secret room and I read the 
key chapters. Don't count on human rights being enforced, 
including labor rights, if the TPP goes into effect as 
currently written. It is nice language but there is no 
enforcement power contained in that document called the TPP.
    Let me point out to my colleagues that when the State 
Department removed Vietnam from the list of Countries of 
Particular Concern as a gesture of good will, which I opposed 
in 2006, we once again saw backsliding.
    Promises were made. Ambassador Hanford, the Ambassador for 
International Religious Freedom, told me and so many others 
that there were deliverables that the Vietnamese Government was 
committed to doing. None of them happened.
    As a matter of fact, as soon as they got into the WTO, once 
we lifted our objection there was a snap back and many of the 
people that I had met on one of my many trips there were all 
rearrested and put back in incarceration.
    According to the United States Commission for International 
Religious Freedom's annual report, and I quote a pertinent 
part,

        ``The Vietnamese Government continues to control all 
        religious activities through law and administrative 
        oversight, restrict severely independent religious 
        practice, and represses individuals and religious 
        groups it views as challenging its authority. . . .''

I agree with the commission's conclusion that Vietnam should be 
designated immediately a Country of Particular Concern because 
of its egregious record of suppression and repression of human 
rights.
    In Vietnam, I have met courageous religious leaders during 
trips there including Father Ly, the Venerable Thich Quang Do 
and yet they remain wrongly detained today.
    There are disturbing reports that Father Ly is suffering 
poor health. There are over 150 prisoners of conscience in 
Vietnam. We should not forget them. We need to use our leverage 
to try to compel their release.
    Since some have made the case that Vietnam has made 
progress in recent years because they signed the U.N. 
Convention Against Torture, I just want to say it is all about 
deeds. Anybody can sign a convention. Anybody can put it on 
paper and say, ``We are going to do this.'' We want deeds and 
the deeds are not there.
    Let me also make a point that on trafficking there is no 
doubt--I am the author--again, Ambassador Rees remembers so 
well because he worked so effectively on the Trafficking 
Victims Protection Act--if there was ever a country that meets 
the definition of a Tier 3 country, an egregious violator, with 
significant problem and is not taking significant actions to 
meet minimum standards prescribed by the TVPA of 2000 and its 
follow-on authorizations, Vietnam is it. Both on the labor 
trafficking point of view as well as from the sex trafficking 
point of view where Dr. Thang has testified to that many times 
in the past.
    I have reintroduced the Vietnam Human Rights Act. It has 
passed the House six separate Congresses. We are hoping to have 
it pass again.
    Maybe the seventh time will be the charm, and the Senate 
will take up the bill and President Obama, who right now is 
against it, will reverse that and support the legislation.
    I would like to yield to my good friend and colleague for 
any comments that he might have, the gentleman from California, 
and then we will go to our witnesses.
    Mr. Lowenthal. I am Congressman Alan Lowenthal. I am here 
and I want to thank Chairman Smith for having me join the 
subcommittee today and I also want to applaud the chairman for 
his leadership role in pointing out and drawing attention to 
the human rights abuses in Vietnam.
    He has been the leader in the United States Congress and I 
am pleased to have joined him on the legislation on human 
rights as an original co-sponsor too.
    I also want to thank and express my deepest appreciation to 
the witnesses, some of them who I have worked with, who I know, 
who have traveled here, who have so bravely shown the spotlight 
on the abuses of the Vietnamese Government.
    There is no denying the fact that Vietnam is an oppressive 
one-party state that has no respect for the rights of its own 
citizens.
    The Vietnamese Government jails those who speak out, who 
advocate for the right to form independent trade unions, for a 
free and fair press, for freedom of religion, for the ability 
to associate. This is really what the Vietnamese Government 
does.
    You know, last week following up on what the chairman said 
we had a very important series of votes in the House on United 
States trade policy and specifically on whether to grant Trade 
Promotion Authority to negotiate the Trans-Pacific Partnership 
to the President of the United States.
    I opposed this bill. I opposed granting TPA for a number of 
reasons but the one major reason is, and I did it in part 
because I really also want to protect American workers and 
including American workers that will be impacted by what takes 
place in Vietnam, but the major concern that I have in the 
trade agreements is why we are rewarding a country like Vietnam 
which engages in bad behavior at this moment and that we are 
now granting them this.
    I think this is the inappropriate way to do it. Instead of 
working now at this moment to release prisoners of conscience, 
to end restrictions on racial practice to allow labor 
organizing in advance of Congress considering the TPA that is 
what if Vietnam really wanted to do would be doing.
    No, Vietnam has doubled down on its bad behavior. You know, 
I visited Vietnam last month with Chairman Salmon on our Asia 
Subcommittee in our delegation and I specifically took every 
opportunity including some of the other members of our 
delegation--Chairman Salmon and also Mr. Emmer from Minnesota--
to press the Vietnamese Government in respect to the rights of 
Vietnamese citizens.
    We also met with human rights activists including Nguyen 
Tien Trung and the patriarch, Thich Quang Do. We left and the 
Vietnamese Government said, ``Oh, we are going to work with 
you.''
    I was so disappointed and, frankly, absolutely shocked when 
just a few days after returning to the United States I learned 
that Nguyen Chi Tuyen, an anti-Chinese pro-environmental 
activist was badly beaten by five plainclothes police officers 
in Hanoi.
    Incidents like this only serve to further call into 
question why the United States should be working to reward 
Vietnam and again, as I point out, in the face of its bad 
behavior.
    I look forward to hearing from the witnesses. I hope all my 
colleagues in the House will take notice of what is occurring 
in this hearing today as we continue to consider Trade 
Promotion Authority and Vietnam's participation in the TPP. 
Thank you, Mr. Chairman, and I yield back.
    Mr. Smith. Thank you, Congressman Lowenthal.
    And I would like to begin now with our very distinguished 
witnesses, beginning first with Nguyen Van Hai of the Free 
Journalist Club of Vietnam, writing under the pen name Dieu 
Cay.
    Mr. Hai is one of Vietnam's pioneering citizen journalists. 
Through his blog he has exposed government corruption, called 
for freedom of expression, and was one of the first Vietnamese 
to criticize China's annexation of the Spratly Islands.
    He was arrested while calling for a boycott of the Beijing 
Olympic torch relay and was originally convicted on trumped-up 
charges of tax evasion. In September 2012, he was sentenced to 
12 years but was released to exile in October 2014.
    We will then hear from Ms. Doan Thi Hong Anh, wife of 
torture victim Nguyen Thanh Nam who was tortured and 
subsequently died of his injuries in what has become known as 
the Con Dau massacre in July 2010.
    She is knowledgeable about the events at Con Dau, which she 
witnessed, but she will also speak to religious persecution 
going on in different parts of the country.
    In order for her husband to be buried she was pressured by 
the government to admit that he died of natural causes.
    Subsequently, she and her two children were constantly 
harassed and intimidated by local security agents and 
subsequently they had to flee to Thailand for safety.
    They were recognized as refugees by the UNHCR and recently 
resettled in the United States, and I would note 
parenthetically that Anh ``Joseph'' Cao convened hearings on 
Con Dau that were truly heartbreaking to hear how the Communist 
dictatorship and the bullies surrounded people, even during a 
funeral, because they wanted the property and they didn't want 
the church to retain possession of that property.
    It is just a another terrible indication of what 
dictatorship is all about.
    We will then hear from Dr. Nguyen Dinh Thang. Dr. Thang, 
who I have known for almost 25 years came to the U.S. as a 
refugee from Vietnam in 1979.
    After earning his Ph.D. he began volunteering for Boat 
People SOS in 1988. Now serving as head of Boat People SOS, Dr. 
Thang has worked for the past 25 years to resettle tens of 
thousands of boat people and he has also worked very hard on 
the trafficking issue and has provided this subcommittee 
pivotal information about not only what happens with trafficked 
people in the United States but brought a very specific case to 
our attention, which we raised via a hearing, that occurred in 
Russia. So I want to thank him for that very fine work that he 
has done.
    Then we will hear from the Reverend Nguyen Manh Hung, who 
is pastor of the Binh Tan Mennonite Church of Vietnam and a 
member of the Interfaith Council of Vietnam.
    He is active in promoting religious freedom, campaigning 
against human rights violations, and defending victims of 
corruption, especially those involved in government land 
seizures.
    He is routinely harassed and threatened by the police and 
recently his wife and children have been subjected to similar 
threats as well. His congregation is also under constant threat 
and harassment from officials.
    I would like to now begin with Mr. Hai and then each of our 
witnesses will follow.

   STATEMENT OF MR. NGUYEN VAN HAI (DIEU CAY), WRITER, FREE 
                  JOURNALISTS CLUB OF VIETNAM

    [The following testimony was delivered through an 
interpreter.]
    Mr. Hai. Members of Congress, I am honored to be here today 
to present the issue of human rights in Vietnam.
    Shortly before leaving Vietnam, my fellow prisoners 
entrusted me to relay their cries for help to the international 
community, to help the international community understand that 
the persecution of prisoners of conscience in Vietnam is 
systemic, to lay bare the deceit of the Vietnamese authorities 
who would commit to revise Vietnam's laws in order to 
participate in international trade agreements but do not 
implement such laws.
    So the first thing I wanted to discuss is freedom of the 
press. All media in Vietnam is in the hands of the Communist 
regime. The people don't have a platform to raise their voice.
    People do not dare to speak their views simply because any 
disagreement with the ruling party can get you arrested under 
vague laws such as Articles 258, 88, and 79 of the criminal 
code.
    A conviction under one of these statutes can result in a 
dozen years in prison. It is these vague laws that allow 
authorities to arrest and imprison anyone with differing 
opinions and to maintain their dictatorship.
    My case is a testament to the suppression of human rights 
in Vietnam when I was sentenced to over 10 years in prison 
simply for peacefully expressing my political views. Only when 
people are able to speak freely, are free to express their 
opinions without fear of repression can society change for the 
better.
    Hence, we need to pressure the Communist authorities to 
abolish the absurd laws and to return freedom of the press and 
freedom of expression to the people of Vietnam.
    The second issue is prisoners of conscience. I spent 6 
years and 6 months in 11 Communist prisons so I know that the 
prisons of Vietnam are administered by circulars and 
regulations, not by laws.
    For example, Circular 37 of the Ministry of Public Security 
deprives prisoners of the rights prescribed in the criminal 
procedures code. Based on Circular 37, Vietnam's public 
security has established a series of prisons within prisons to 
detain political prisoners. Placed in solitary confinement for 
months, those prisoners refused to admit guilt, leaving many to 
go on hunger strikes to protest.
    Recently, Ms. Ta Phong Tan, a member of the Club of Free 
Journalists, went on a hunger strike to protest the abuse of 
political prisoners by officials of Prison Camp Five in Thanh 
Hoa Province.
    Circular 37 of the Ministry of Public Security is really an 
instrument to punish these dissenters outside the legal code. 
As I mentioned, prisoners are deprived of rights stated in the 
law, especially when prisoners who wish to submit a complaint 
must first go through the jailers who, of course, never forward 
on the complaints but instead take revenge on the prisoners.
    Oversight bodies and Vietnamese law do not provide inmates 
the opportunity to exercise their right to protest as 
prescribed in the criminal procedures code.
    To ensure basic rights for all prisoners, to prevent 
political prisoners, as well as prisoners of criminal offenses 
from being treated like animals, the Vietnamese Government must 
abolish Circular 37 of the Ministry of Public Security and 
revise the criminal procedures code in accordance with 
international standards.
    I earnestly call upon governments and international 
organizations to pressure the Vietnamese authorities to, first, 
abolish vague laws such as Articles 258, 88, and 79 of the 
criminal code, Decree 72 of the Prime Minister and Circular 37 
of MPS.
    Secondly, revise domestic laws to be in compliance with 
international conventions to which Vietnam is a signatory, and 
third, release all political prisoners. I would like to submit 
a list of prisoners of conscience in need of emergency 
assistance.
    They are Ta Phong Tan, Tran Huynh Duy Thuc, Nguyen Huu 
Vinh, Bui Thi Minh Hang, Tran Vu Anh Binh, Vo Minh Tri (Viet 
Khang), Nguyen Dang Minh Man, Ho Bich Khuong, Doan Van Vuon, 
Doan Dinh Nam, Doan Huy Chuong, Nguyen Hoang Quoc Hung, Dang 
Xuan Dieu, Ho Duc Hoa.
    Thank you for your attention.
    [The prepared statement of Mr. Hai follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Thank you so very much, Mr. Hai.
    We have been joined by Chairman Dana Rohrabacher, also of 
California. Any comments?
    Mr. Rohrabacher. Let me just say that we are facing one of 
these decisions and I am happy to hear and see you here to help 
guide us in this decision because we are being told, like we 
were told with China that if we just give certain economic 
status to a country, even though that government is dictatorial 
and abuses its own people that by giving them the same type of 
economic status that you would give to a free country that it 
will lead to reform and lead to democratization and 
liberalization.
    I have just come from a hearing just a moment ago about 
China and there has been no political reform in China, and from 
what this gentleman has just told us there has been no 
political reform in Vietnam. Yet, we have been opening up the 
floodgates.
    I want to make sure that I get your advice as to what we 
should be doing about expanding our economic openings to 
Vietnam and America and whether that will help or whether that 
extra wealth will bolster the strength of those who oppress the 
people.
    And in China, it has certainly not weakened the hold on the 
people of China. So with that said, Mr. Chairman, I have 
appreciated working with you over the years on issues--human 
rights issues in Vietnam but throughout the world and 
Congressman Lowenthal and I have decided that we are going to 
be partners in a lot of very important things and helping 
people in Vietnam and elsewhere, for their human rights is 
right on the top of that list.
    So thank you all very much.
    Mr. Smith. Thank you very much, Chairman Rohrabacher.
    I would like to--Mr. Clawson, do you have any opening 
comments?
    Mr. Clawson. I think Chairman Rohrabacher has it exactly 
right. What goes on in the world over and over again is that 
folks use our marketplace to industrialize and to modernize 
their economies and their infrastructures and then sometimes 
some of that flows through to the folks that are making Nike 
shoes and electronics and toys and so their lives are better, 
freer and there is more social justice and human rights. And 
sometimes it doesn't work out that way, correct, Congressman?
    Mr. Rohrabacher. Well, I haven't seen it work in the latter 
yet so----
    Mr. Clawson. You are not going back far enough. I also am 
interested. I am very much into free and fair trade but I think 
everybody needs to share in that wealth and in the benefits 
derived thereof and therefore hearing from folks like you all 
and what you have to say about that I think is an important day 
here on Capitol Hill.
    Mr. Smith. Thank you very much.
    I would like to now introduce Ms. Doan, if you could 
proceed.

 STATEMENT OF MRS. DOAN THI HONG-ANH (WIFE OF A TORTURE VICTIM)

    [The following testimony was delivered through an 
interpreter.]
    Mrs. Doan. Honorable Congressmen, ladies and gentlemen, my 
name is Doan Thi Hong Anh, the widow of Mr. Nguyen Thanh Nam, 
the Con Dau parishioner who was tortured to death that you have 
been informed of in the U.S. Congress hearing August 18, 2010.
    After the brutal police crackdown at the Con Dau parish 
cemetery on May 4, 2010, and especially after the painful death 
of my husband by the torture of the local militia, the 
government found every way to prevent me from telling the truth 
about the real cause of my husband's death.
    I had to close all doors and hid in my house for months 
before finding a way to escape to Thailand to protect my 
children and my own life.
    We were accepted with refugee status and we settled in the 
U.S. less than a year ago. I am honored to be here today to say 
thank you to the Congress and the United States Government for 
the concern and support for my family and my parish in Con Dau 
in the last 5 years during the fight for justice and protect 
our parish assistance.
    It is because of the strong voice from the Congress, 
especially from you, Mr. Chairman, has brought my family and 
more than 100 victims from Con Dau to freedom the last 2 years.
    Your work and your efforts have changed many lives 
including thousands of Vietnam refugees in other humanitarian 
programs that you sponsored over the years. You are truly the 
champion of human rights. You are our hero and we are deeply 
grateful for that.
    The religious persecution policy of the Communist 
Government of Vietnam was exposed very obviously with the 
persecution in Con Dau. They have used every means from 
intimidation, harassment, beatings, torture, imprison to land 
expropriation by force to take over the land and wipe out 
historical and all-Catholic parish.
    I have witnessed and myself a victim of so many times being 
intimidated by government officials to sign an agreement to 
move out without leaving any chance to stay around the church 
to continue with our religious activity.
    Con Dau is only one of hundreds of religious persecutions 
that have happened in Vietnam, especially in the far away 
areas. I would like to give some examples.
    In the Diocese of Kontum, central Vietnam, on January 17, 
2015 the government ordered to dismantle the temporary chapel 
of the Dak Jak Parish and expel the chaplain from the parish of 
more than 5,000 parishioners. In March of this year, the 
government of Dak To District campaigned to dismantle 22 
temporary chapels in the district also with the reason of not 
being recognized by the government.
    In the Diocese of Hung Hoa, northern Vietnam, the province 
government of Lai Chau, Dien Bien, and Son La in the last 70 
years under Communism never allowed the establishment of any 
chapel at any mission station in the provinces or permit 
priests to come celebrate Mass per the demand of thousands of 
Catholics in this area.
    In the Diocese of Vin, a diocese with more than 500,000 
Catholics in central Vietnam the Parishes of My Yen, Tam Toa, 
Con Cuong and many other mission stations in the province of 
Quang Binh, Nghe are still facing many difficulties in the 
religious activity because of the nonrecognition of the local 
government.
    In reality, the freedom of religion in Vietnam has not been 
respected. That is a statement from the U.N. Special Rapporteur 
Heiner Bielefeldt after his visit in Vietnam July 2014.
    The government has covered up or turned away from multiple 
violations in many places. In summary, I call you to continue 
raising your concern and pressure the Vietnamese Government to 
respect religious freedom. Strong U.S. and international 
pressure is necessary and makes a difference as in the case of 
Con Dau.
    Con Dau Parish is still standing even though battered and 
reduced in size after so many persecutions and forced 
expropriation. The decision of resolving the Con Dau issue is 
still on the hand of Prime Minister Nguyen Tan Dung since 
September of last year.
    I call on you to request the Prime Minister resolve the 
issue reasonably and fairly. I also call on the Congress to 
pass the Vietnam Human Rights Act and incorporate human rights 
conditions into the TPP negotiation with Vietnam.
    I call on the United States State Department to designate 
Vietnam as CPC to force them to improve human rights generally 
in order for our 90 million fellow countrymen to have the 
opportunity to live as a human being and enjoy freedom like me 
today.
    Thank you. God bless America.
    [The prepared statement of Mrs. Doan follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
                              ----------                              

    Mr. Smith. Ms. Doan, thank you so very much. And again, our 
deepest condolences to you for your loss and know that our 
prayers, all of us, feel so much for you and for all of those 
who have suffered in that wonderful Catholic parish.
    Dr. Thang.

STATEMENT OF NGUYEN DINH THANG, PH.D., EXECUTIVE DIRECTOR, BOAT 
                           PEOPLE SOS

    Mr. Thang. Mr. Chairman and distinguished members of the 
subcommittee, I would like to thank Mr. Chairman and the 
subcommittee for holding this hearing at this very critical 
juncture in the relationship between the United States and 
Vietnam.
    Ongoing negotiations on the Trans-Pacific Partnership, or 
TPP, is expected soon to be concluded and President Obama will 
soon welcome Mr. Nguyen Phu Trong, the secretary general of the 
Vietnamese Communist Party, to the White House. He is not the 
head of state. He is the head of the Communist Party.
    As the two governments celebrate the two decades of 
normalized diplomatic relations this year, independent 
religious communities in Vietnam continue to face severe 
persecution.
    Ms. Doan Thi Hong Anh only mentioned about some incidents 
in Kontum. I just would like to point out some of the pictures. 
I am not sure whether you can see these or not but these are 
temporary chapels, 22 of them in just one district, that 
recently received the order to be dismantled.
    These are temporary chapels. They are tiny. They are just 
sheds. They are the only places of worship of thousands of 
Catholics in that district of Dak To.
    Why temporary chapels? Because their repeated requests to 
be registered as organizations, as parishes, have been ignored 
by the government.
    Their repeated requests to build churches have been ignored 
by the government and the only way out for them was to erect 
these temporary chapels and now they are being ordered to 
dismantle them.
    That is a very troubling trend of dismantling religious 
facilities so as to deny the faithful a venue to practice their 
faith. On February 6th of this year, the authorities in Khuoi 
Vinh village, Cao Bang Province, destroyed the very simple shed 
that followers of the Duong Van Minh sect--that is a Christian 
sect--built and used to store funeral objects as called for by 
their religious practices and traditions. They share this shed, 
and the funeral objects stored in this shed, because they are 
very poor.
    They cannot buy these objects, here--accessories here in 
the picture, for the funeral procession so they use and they 
store them in the shed so all the villagers can reuse them.
    These are the sheds and the government consistently, 
repeatedly destroyed them. So on February 6 the police came in 
and assaulted the villagers who tried to protect their shed and 
caused severe injuries to two of them that required 
hospitalization.
    A few months later, the villagers rebuilt that shed and on 
May 21, that is just a few weeks ago, the authorities again 
demolished it. So this is the sixth time that villagers built 
and rebuilt the shed and it was the sixth time that the 
authorities destroyed it.
    And then on April 14, the governor of Phu Yen Province 
dismantled Tuy An temple. This is the temple shown in the 
picture, a tiny temple of the Cao Dai, the local Cao Dai 
community.
    That is the only place of worship for that community and 
now it is gone. So these Cao Dai followers are worshipping in 
the place of destruction--the destruction of the temples, 
outdoors. They have no facility anymore.
    So that goes on and on. These are just a few examples of 
the situation on the ground--the reality in Vietnam. Reacting 
to international criticism, the Vietnamese Government has 
promised to pass its first ever law on belief and religion.
    That raised a lot of expectation and hopes among observers 
of Vietnam. However, its latest draft that was released in late 
April of this year was disappointing.
    This draft law would simply cement the restrictions and 
controls already in place under the existing ordinance on 
belief and religion and Decree 92, both of which are in direct 
violation of Article 18 of the International Covenant on Civil 
and Political Rights.
    Under the draft law, all religious activities that involve 
a group, even those conducted in private homes, would be 
required to register and be preapproved by the government. 
Registration is a requirement, not an offer, and there appears 
to be no alternative legal personality for organizations who 
choose not to register. So they would be practically outlawed.
    Registration approval are required for a broad range of 
activities and events including organizing festivals, 
ordainment and assignment of clergy, religious training, 
participation in overseas religious events and organizations, 
division or merging of affiliated religious organizations, 
establishment of religious formation facilities, amendments to 
a religious organization's charter or rules and regulations and 
so on.
    So in summary, the draft law is designed to impede 
independent religious communities. It would perpetuate and even 
aggravate the current situation where ``the rights to freedom 
of religion or belief of these communities are grossly violated 
in the face of constant surveillance, intimidation, harassment, 
and persecution,'' and these are the very words of the U.N. 
Special Rapporteur on freedom of religion or belief in his 
recent report on Vietnam.
    I would like to make a few recommendations. First of all, 
the U.S. Congress should take legislative actions to make trade 
and security partnership with Vietnam including the TPP and 
future transfer of lethal weapons to Vietnam contingent on 
significant improvement in human rights, particularly the right 
to freedom of religion and belief.
    Second, the U.S. State Department should designate Vietnam 
a Country of Particular Concern and the Vietnamese Government 
should treat registration with the government as an offer to 
religious communities to enhance their rights, not as a 
prerequisite for religious activities.
    So the points that I just presented actually reflect the 
opinion and the position of the majority of Vietnamese-
Americans.
    At this very moment, some 800 Vietnamese-American advocates 
joined by many American veterans of the Vietnam War are 
arriving in the national capital from 30 states for our fifth 
Vietnam Advocacy Day in 4 years.
    We will be joined by numerous religious leaders tomorrow 
and many fellow advocates from other countries and tomorrow we 
will go office to office to talk to Members of Congress to 
advocate for greater rights of Vietnamese citizens--freedom of 
religion and human rights for them all.
    Again, thank you, Mr. Chairman, and members of the 
subcommittee.
    [The prepared statement of Mr. Thang follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Dr. Thang, you so very much.
    Pastor Hung.

STATEMENT OF THE REVEREND NGUYEN MANH HUNG, VIETNAM INTERFAITH 
                            COUNCIL

    [The following testimony was delivered through an 
interpreter.]
    Mr. Hung. The following is my statement representing the 
Vietnam Interfaith Council and the Cattle Shed Congregation of 
the Mennonite Church of Vietnam.
    I am here today as a part of a campaign for prisoners of 
conscience in Vietnam with my colleagues, Mr. Truong Minh Tam, 
a former political prisoner, and Mr. Nguyen Van Loi, the father 
of political prisoner, Nguyen Dang Minh Man.
    I am a pastor of the Mennonite Church and member of the 
Interfaith Council of Vietnam. My parishioners and supporters 
have been persecuted for expressing their faith. Before this 
trip, I discovered that the venerable Thich Khon Tanh Lien Tri 
Pagoda was threatened by security police that after TPP is 
approved authorities will tear down the pagoda.
    This trip to America comes at a crucial moment because of 
the discussions on TPP and I hope to bring forth my experiences 
and perspectives on conditions of religious freedom in Vietnam.
    The experiences of the Cattle Shed Congregation serve as 
evidence of the Vietnamese Government's repression of religious 
groups that do not accept the state's interference in their 
activities.
    We have 100 members and provide five classes for poor 
children. Because the Vietnamese Communist authorities do not 
want us to do charity work, they seized our land, forcing us to 
resort to setting up our place of worship in an abandoned 
cattle shed.
    Over the past 8 years, since moving to the cattle shed, 
authorities have continually looked for ways to get rid of us.
    On one occasion, the Cattle Shed Congregation was 
organizing a ceremony and I was told that the security police 
had come to investigate.
    When I came downstairs to see what was going on, 
plainclothes police came up, grabbed my neck, and choked me 
down to the floor as the security police stepped over my body 
to enter the ceremony room and disband the event.
    On another occasion, plainclothes police came to my house 
and destroyed my property and threatened to kill me, my wife, 
and my son.
    They use thugs and plainclothes police to brutalize our 
parishioners including Pastor Nguyen Hong Quang and have 
manipulated the law to imprison religious leaders such as 
Father Nguyen Van Ly, Pastor Duong Kim Khai, and Pastor Nguyen 
Cong Chinh.
    In spite of these acts of terrorism on our spirits and 
wellbeing, we keep moving forward. The most pressing issues for 
those in the wider religious communities are as follows: The 
Cao Dai and Hoa Hao Buddhist groups suffered land grabs at 
religious sites and the members are barred from participating 
in large ceremonies and Catholic groups have been banned from 
allowing Bishop Hoang Duc Oanh to ordain seminarians and 
authorities are preparing to seize 22 churches of ethnic 
minorities in Kontum Province.
    Another concern is the state's draft law on religion which 
is an attempt to tighten control over the affairs of faith-
based organizations and stifle religious freedom.
    In order to address these issues, five major religious 
groups have come together to form the Interfaith Council of 
Vietnam. With our collective voice, we speak up for religious 
freedom and political prisoners and engage in humanitarian 
efforts.
    With the 20th anniversary of normalization between the U.S. 
and Vietnam, the ongoing TPP negotiations as well as General 
Secretary Nguyen Phu Trong's visit to the U.S., I hope that 
members of the U.S. Government will first call for the release 
of prisoners of conscience, especially faith leaders such as 
Father Nguyen Van Ly, Reverend Duong Kim Khai, and Reverend 
Nguyen Cong Chinh.
    Secondly, urge the U.S. Embassy in Hanoi to regularly visit 
political prisoners. I would like to request urgent attention 
for blogger Dang Xuan Dieu and photojournalist Nguyen Dang Minh 
Man, held in Prison Camp 5 of Thanh Hoa Province and community 
organizer Ho Duc Hoa in Nam Ha Prison in Ha Nam Province.
    They have been mistreated, placed in solitary confinement 
and in the case of Ho Duc Hoa denied the right to practice his 
Catholic faith in prison.
    And thirdly, call on the Vietnamese Government not to enact 
the draft law on religion. Thank you for your time.
    [The prepared statement of Mr. Hung follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Mr. Hung, thank you very much for your testimony 
and for your leadership.
    Let me just begin with a few questions. Mr. Hai, you made a 
very powerful opening and all of your statements were very 
powerful.
    But you noted that your fellow prisoners entrusted you to 
relay their cries for help to the international community and 
you have done that, as you all have, to help the international 
community understand that the persecution of prisoners of 
conscience in Vietnam is systemic--that it is ongoing, it is 
pervasive and it is part of the system.
    It is not an aberration. And also, to lay bare the deceit 
of the Vietnam authorities when they commit to revise 
Vietnamese laws in order to participate in international trade 
agreements but do not implement such laws.
    I would take it a step further and say even the laws they 
write, as Dr. Thang pointed out, the new religious law is 
likely to compound and make worse the already existing Decree 
92, which is already a terrible onerous burden on people of 
faith.
    So that deceit that you speak about, and all of you might 
want to speak to this, we have been here before. We have seen 
this movie.
    It almost is like deja-vu from 15 years ago in 2000 and 
again a half a dozen years later when the WTO was the issue, 
all of this seeming movement toward easing, only to be followed 
by a snap back.
    As a matter of fact, Pastor Hung, you pointed out that a 
religious leader was informed by authorities that when TPP is 
approved his pagoda would be torn down. When are we going to 
learn? Why won't the administration hear?
    One of the leaders in the administration wrote an op-ed 
recently saying how this good thing is happening and this 
prisoner is being released.
    We saw that before only to see, again, a very serious 
repressive move by the Government of Vietnam against its own 
people. This will be the third time. First time, shame on you. 
Second time, shame on me.
    Third time, are we being foolish? Are we naive? And yet, 
the same cynical notion is seemingly having an impact 
positively at the White House and among Members of Congress.
    So let me just ask you if you could speak to that issue, 
starting with Pastor Hung, about the pagoda. Elaborate on that. 
While you are translating, I remember I made a trip to 
Vietnam--several--but one of them I met with a large number of 
leaders from the Buddhist Church.
    I met with the Venerable Thich Quang Do, like my friend, 
Mr. Lowenthal, like many of my colleagues. Father Ly, Father 
Loi, so many others and a lot of Protestant pastors. Many of 
them were rounded up after the trade benefit was provided and 
even people who had signed Bloc 8406 found themselves targeted 
by the repressive Vietnamese Government.
    So if you could answer how naive are we as a government 
here in the United States, thinking that somehow things will 
improve?
    And I will just add one last thing. Having read the key 
chapters of the TPP, which is under lock and key right now--we 
can't even discuss it openly--I am absolutely not persuaded 
that human rights would be advanced.
    Just the opposite. There is no enforcement, even of ILO 
standards. It has some nice language about the international 
labor laws, but no enforcement mechanism.
    So if you could all address that, then I will yield to my 
friend, Mr. Lowenthal, for any questions he might have.
    Mr. Hung. Lien Tri Buddhist Temple for many years has a 
place in a place for people who have been disadvantaged who 
suffered injustices and has been a place to help the 
handicapped including the wounded veterans of the former 
Republic of Vietnam.
    Because of these humanitarian efforts by the Lien Tri 
Pagoda, the Vietnamese authorities have really focused on 
targeting to shut down this Buddhist temple.
    So last August, the authorities came out with an 
announcement that they would take administrative measures 
against the pagoda in September. So the Interfaith Council, 
which I am a member of, we organized a petition that got 
thousands of signatures to oppose that and fortunately the 
government backed off from those plans.
    And recently the Vietnamese Redemptorists were prevented 
from organizing their own activities at the Ky Dong Church and 
in Saigon and because of that the Redemptorists partnered with 
the Buddhist temple at Lien Tri and because of that the 
authorities are further focusing on the Lien Tri pagoda.
    And so before I came to the U.S., the Venerable Thich Khong 
Tanh, the abbot of Lien Tri pagoda, said that fellow Buddhists 
of that pagoda have heard from government officials to remove 
all their artifacts from the temple including cremated remains 
of the relatives because the temple would be closed down after 
TPP.
    And so now the authorities are pressuring the Lien Tri 
temple to basically take a settlement--a very reduced sale of 
the temple, of the land--so then the government can take over 
the land.
    So Venerable Thich Khong Tanh has refused that cash 
settlement as well as the Vietnam Interfaith Council has 
refused that and so now we are waiting for the response from 
the Vietnamese authorities.
    Thank you.
    Mr. Thang. Yes. The Vietnamese Government now has sent some 
signals to our Government that it may be ready to make 
concessions on legal rights as part of TPP.
    However, I don't think there is any benchmark or mechanism 
to enforce their commitments, to monitor their compliance, or 
to sanction them in case there is noncompliance.
    We have seen a precedent before back in 2006 when the 
Vietnamese Government promised to respect the right to freedom 
of religion in order to be taken off the CPC designation.
    So we hurriedly took Vietnam off that list and immediately 
there was a brutal bloody crackdown against religions that we 
have documented through pictures--actually, the violence 
against people of faith including religious leaders.
    These are very graphic and I would like to point out a few 
pictures only. This is a picture of Pastor Nguyen Cong Chinh 
serving a long-term sentence in prison right now, a picture of 
Father Ly, a Buddhist monk here--he was beaten and had to be 
hospitalized. Father Ngo The Binh, a Catholic priest, also 
beaten up and he had to be hospitalized.
    This person was beaten to death, a Khmer Krom Christian 
Protestant. Ms. Ken a female Catholic, so on and so forth until 
this day. There continues to be violent against people of 
faith.
    So we have no mechanism from our own Government when we 
accepted the promise and commitment by the Vietnamese 
Government that they would improve. If they fail to do so, we 
have no mechanism, no benchmark to measure that. There are no 
deliverables, as Mr. Chairman just mentioned. So I am just 
afraid that we are back in the same situation again with the 
Vietnamese Government's promise to respect the workers' rights, 
to form or join independent and free labor unions. So I am very 
concerned about that.
    Mr. Smith. On that point I did ask an administration 
witness at a previous hearing what happens when labor rights 
activists and other human rights activists and religious 
freedom prisoners and especially since labor rights are at 
least signaled in the TPP included in it, when they are beaten, 
when they are incarcerated and given long jail sentences and 
their efforts at organizing are completely thwarted, what does 
that trigger?
    They said, we will get back to you. They still haven't 
gotten back to me. I have now read the secret proposed treaty 
called the TPP, or executive agreement, and I didn't see any 
enforcement.
    Mr. Lowenthal.
    Mr. Lowenthal. Thank you.
    I want to follow up on--and first of all, I am finding the 
very informative, the hearing, and I thank, again, the 
witnesses.
    I assume that all of you are, and I want to hear from you--
I guess it is my assumption after listening--if you were 
advising us you would advise us, given the present 
circumstances, to vote against the TPP?
    Does each of you make that statement to us that you see 
that the gains would be offset tremendously by the negative 
aspects of the TPP? I am trying to hear--would you advise us to 
vote against the TPP, given the circumstances of where we are?
    And if not, what should we be doing as Members of Congress? 
Dr. Thang.
    Mr. Thang. That is a very tough question because on the one 
hand we would like to see Vietnam be prosperous. We would like 
to see Vietnam be democratic, to be a stable and reliable 
partner of the United States.
    However, there are no preconditions right now to make those 
things happen. And therefore, we are pushing for conditions to 
make Vietnam a trusted party and deserving party of the TPP and 
that means that they must truly respect human rights.
    They must allow their citizens the basic rights, the basic 
freedoms--and there are three of them--freedom of expression, 
freedom of peaceful assembly, and freedom of association. Those 
are the cornerstones of civil society. And we would like to see 
those things demonstrated before Vietnam joins the TPP.
    Mr. Lowenthal. Okay. So I am not going to ask the others 
because I think it could put you into a difficult situation 
what to do. So I hear that you are saying that there are 
preconditions.
    What you would like, Doctor, is that these conditions be 
addressed first before they do and you have not seen--and you 
said you see some signs but you're not sure that these are 
really moving forward.
    What signs do we really need to see? What do we really need 
to see now in terms of the conditions?
    Mr. Thang. For instance, there ought to be a decision at 
the highest level to release all prisoners of conscience. 
Secondly, there ought to be laws to truly legalize the 
formation of free and independent labor unions, and we don't 
want a repeat of the ordinance on belief or religion because 
that ordinance has actually been used as a tool to control and 
suppress religions and not to promote religion at all.
    And thirdly, we would like to see that there will be 
sanctions provisions as part of the negotiation, as part of 
TPP. Maybe we should give Vietnam 5 years to get there, to be 
fully a partner in TPP.
    Mr. Lowenthal. And then I am going to ask Mr. Hai. What you 
are saying is that we should, especially with Vietnam, slow 
down the process, not say not to join or to join, but to 
specifically see some very specific changes whether in 
religious freedom, labor law, right to associate before they 
become a partner in this--that you are not opposed economically 
in the future for Vietnam to be prosperous but we should not 
grant that right away.
    We should be really holding their feet to the fire and 
letting them demonstrate not after they become part of the TPP, 
but before they do that and not to send a message you are 
against it, but you want them to demonstrate these very 
specific changes in laws and other practices.
    I wonder if Mr. Hai has the same feeling about that. What 
would you advise us to do?
    Mr. Hai. So we all recall that before Vietnam joined the 
WTO they made many promises of which they have not fulfilled. 
So one of the big questions is whether TPP will actually bring 
economic benefits to people in Vietnam, in particular, 
Vietnamese workers.
    In Communist countries, not just Vietnam, in China too, 
they suppressed worker wages as a way to, you know, spur trade 
and investment so therefore the competition that happens in 
Vietnam is not something that is productive.
    So American businesses may bring their operations to 
Vietnam to take advantage of the artificially low wages and the 
lack of environmental protections.
    So Vietnamese authorities will profit from these operations 
in taxes and so forth but Vietnamese workers won't receive 
their proper wages and when those operations shift from the 
U.S. to Vietnam then, of course, American workers will lose 
their work--their jobs.
    So therefore I don't want to see TPP be achieved at the 
expense of human rights. So if Vietnam joins TPP, I would like 
to see Vietnamese workers have the right to form their own 
independent labor organizations to defend and protect their own 
rights because the government-sponsored labor group doesn't 
work for the Vietnamese workers and in its history of 80 years 
it has never organized a strike on behalf of Vietnamese 
workers.
    And Vietnamese activists who have organized to protect 
workers have been persecuted, as you may have heard, cases such 
as Bui Thi Minh Hang and Nguyen Hoang Quoc Hung. So the lessons 
experienced with WTO is apparent to us and we should apply that 
for TPP.
    Mr. Lowenthal. So what you are saying is you don't want 
promises. You would like to see real change before the----
    Mr. Hai. Yes. I would like to see enforceable measures 
including, with TPP, things that can be done if they do not 
abide by the promises in the letter of the agreement.
    Mr. Lowenthal. Thank you. Thank you, and I yield back.
    Mr. Smith. Thank you.
    Chairman Rohrabacher.
    Mr. Rohrabacher. When are we ever going to learn? They are 
Communists who control Vietnam. I mean, these are people who 
believe in an atheist dictatorship and they have been pushing 
it ever since the beginning of the Cold War.
    I am sorry. You are not going to make deals with these 
Communists that are going to make them not Communists, and the 
fact that there is still repression going on now, Mr. Chairman, 
religious repression in Vietnam after all of this time which 
shows you they are committed to their philosophy which atheist 
dictatorship will create a better world.
    And, obviously, this idea that we are going to try to--they 
are going to make an agreement to make things better and thus 
we are going to let them into a better trade relationship with 
us, I am sorry.
    It didn't work in China and it is not going to work in 
Vietnam. The only thing that is going to work in Vietnam and in 
China is if the people of the United States and other freedom-
loving people around the world decide we are not going to let 
them be treated like they are a free country. That is the only 
hope we have.
    If we treat gangsters like we do people who are a 
democratic political people, don't expect the gangsters to 
become like political people. They will think we are a bunch of 
suckers.
    Why do they have to change? The last thing we want to do is 
give TPP--a trade status--to any Communist dictatorship until 
after they change, not an agreement that they will change.
    Let me put it this way. The Vietnamese are very freedom-
loving people and that they are still trying to build churches 
and suffering the repercussions is something consistent with 
what I have seen about the Vietnamese people.
    I spent some time in Vietnam in 1967 up in Pleiku and the 
Vietnamese I was working with--they were Montagnards and these 
guys were very small and they were willing to take on the 
entire North Vietnamese Army with these little crossbows.
    And then I was down in Saigon working with some students 
who were trying to promote democracy in Vietnam and there would 
be rallies and the Communists would blow up--they would have 
these bicycles loaded with explosives and they would put them 
into the middle of the rallies and blow everybody to hell.
    But the students didn't give up and they were still for 
freedom and democracy, just like the people in Central 
Highlands didn't give up.
    And today we have got to make sure we don't give up. We 
gave up once before and I think we betrayed the fail that was 
put into us and now who is going to benefit in faith the United 
States by reaching out to the Communist Government of Vietnam?
    It is a clique of capitalists who will make money and then 
the Communist dictators and the gangsters that run Vietnam will 
make money and the American people won't be any better off.
    We will be worse off because we will be less secure. We 
will be relying on a gangster regime. But certainly, the people 
of Vietnam aren't going to be better off.
    They are not going to--out of the goodness of their heart 
make sure that this--that the resources that they are producing 
with their hard work are compensated justly for it because then 
they couldn't take their share.
    I think it is time for us to, instead of looking for ways 
to basically cozy up and think that we are going to be nice to 
the dictatorship in Vietnam and it is going to reform, we have 
to put those days behind us.
    We are always open to that but we should be open until they 
make the steps first.
    The fact that they are still persecuting religion indicates 
to us that they still believe in this monstrously evil atheist 
dictatorship that the Communists tried to impose on the world 
for 50 years.
    So with that said, I will certainly be against TPP if they 
include a Communist dictatorship as one of the countries we 
should treat as friends. Thank you, Mr. Chairman.
    Mr. Smith. Thank you, Chairman Rohrabacher.
    Regrettably, there is a series of votes on the floor but I 
do have a few final questions I would like to ask, and if I do 
have to run over, please continue and the hearing will adjourn 
when you are done with your remarks.
    First of all, Mr. Hai, you made a number of very important 
points about abolishing Circular 37 and you said to ensure 
basic human rights for all prisoners to prevent prisoners of 
conscience, political prisoners, as well as prisoners of 
criminal offenses from being treated like animals and maybe 
elaborate on that.
    You point out that Circular 37 must be abolished and you 
also pointed out when there is a complaint from a incarcerated 
person--a political prisoner, for example--that there is a 
retaliation taken against that person by the--by the prison 
guards and by the warden.
    You might want to respond to that as well. Did that happen 
to you?
    To you, Dr. Thang, as you pointed out, the U.N. Special 
Rapporteur on freedom of religion and belief offered a very, 
very important observation when he said the rights to freedom 
of religion or belief of the independent religious communities 
are grossly violated in the face of constant surveillance, 
intimidation, harassment, and persecution.
    That was July 2014, and unfortunately there are many in 
Washington who are acting as if somehow things had matriculated 
from severe repression in Vietnam to emerging democracy, which 
it has not. If you want to elaborate on that.
    And you also pointed out, and I think this is very 
important, that the Vietnamese National Assembly is promising 
to promulgate its first law on belief and religion.
    Now, there are a lot of people here on Capitol Hill who are 
gullible, who will accept that they are in the process of 
reforming and you in your testimony many a very strong point 
that this simply cements the restrictions and controls already 
in place under the ordinance of Decree 92.
    So, you know, another sham reform effort and yet 
unfortunately it will have its buyers here in the capital who 
will say they are redoing their religious--maybe you want to 
speak to that as well.
    And Ms. Doan, again, thank you for your courageous stand on 
behalf of those who have lost their lives, including your 
husband, and of course those who lost their homes and a parish 
that lost its ability to thrive as it did so well.
    Your courage is deeply appreciated. And of course, Pastor 
Hung, thank you for your leadership as well and for your very 
concrete recommendations.
    Mr. Hai, if we could start with you.
    Mr. Hai. So Circular 37 was issued by the Ministry of 
Public Security in 2011 and the contents of that circular have 
never been published and they are held in secret.
    According to the criminal procedure code of Vietnam there 
is no mention of all the measures that people have experienced 
under Circular 37. It is something that is not in the legal 
code.
    For instance, Article 42 of this code, the legal code, 
talks about Vietnamese prisoners being held in public areas in 
groups who are not in solitary confinement.
    But in Article 37 the jailers have many prisons where they 
hold people separately, sometimes behind three sets of doors.
    Each cell will hold from one to two political prisoners and 
that the doors never open and these people are held in de facto 
solitary confinement.
    I am a victim of this Circular 37 and in June 2013 they 
read an order to hold me under solitary confinement but they 
never gave me the written order.
    I was held in solitary confinement for 3 months even though 
the actual laws permit something like that to happen for 10 
days. So this is an example of a regulation that is below the 
laws but supersedes the laws.
    Two very appalling and recent cases are of the blogger Dang 
Xuan Dieu and also Nguyen Dang Minh Man, who are both held in 
such circumstances.
    On the issue of issuing appeals, in June 2013 I issued an 
appeal. According to the laws, the authorities have 24 hours to 
respond to my appeal but then I had to go on a hunger strike 
for 33 days before the authorities made any attempt to resolve 
the matter.
    During my hunger strike was the visit by the state 
chairman, Truong Tan Sang, to the United States two summers ago 
and it was only when Truong Tan Sang returned to Vietnam that 
the pressure led to the resolution by the authorities.
    In conclusion, rather than authorities, you know, resolving 
my case within 24 hours as the law stipulates, I had to go on a 
hunger strike for 33 days and because when I want to protest my 
mistreatment I have to write it out and give the paperwork to 
the people who are mistreating me. That is why there is such 
abuse in the Vietnamese prisons.
    Mr. Smith. Thank you. Please don't hurry your response. I 
am going to have to leave. Without objection, your full 
comments will be a part of the official record and when you 
have concluded the hearing is adjourned because it is so 
important that we hear what you have to say.
    So Dr. Thang, I do have to run to the vote. But thank you 
and thank you all for your extraordinary testimony, which we 
will make sure that other Members of Congress hear it, House 
and Senate, because again, your bravery and your insights are 
absolutely amazing and I thank you for it on behalf of my 
subcommittee.
    Dr. Thang.
    Mr. Thang. Yes, Mr. Chairman. I think that the prime reason 
for the situation that we have found ourselves in is that the 
Vietnamese Government has made multiple promises to the U.S. 
Government and the free world that it would change, it would 
improve human rights conditions in Vietnam, it would become 
more tolerant of religious freedom. It is of concern that there 
is a lack of political will in our own administrations 
throughout many presidencies.
    For instance, Vietnam did promise to come out with a law 
that would respect religious freedom and it did come out with 
the ordinance on belief and religion. However, the Vietnamese 
Government has surely used that law to control religions, to 
restrict religious activities, and also to create synthetic 
organizations to crowd out the real ones.
    For instance, in many situations relating to Cao Dai 
religion, the Hoa Hao Buddhist religion, the Unified Buddhist 
religion, the Khmer Krom Buddhism, et cetera, and many 
Protestant denominations, the government aided the synthetic 
organizations to take over the facilities and the assets of the 
real religious organizations.
    So we are seeing that the Government in Vietnam is using 
its law that on the one hand it claims to be progress in 
dealing with the outside world. But on the other hand, it is 
using its law to further suppress religious activities in 
Vietnam.
    Now, back to the report by the U.N. Special Rapporteur, Mr. 
Heiner Bielefeldt. If we take that report at its face value 
then, clearly, there is no other option but for the State 
Department to designate Vietnam as a Country of Particular 
Concern.
    The threshold for CPC designation is that there is ongoing 
egregious violations of freedom of religion. And systematic. 
And it is systematic because this is the law--there is a legal 
framework that allows the government to do this--to act that 
way and it is ongoing because, clearly, in my testimony we have 
demonstrated that even as of today there are egregious 
violations of freedom of religion in Vietnam.
    There is, clearly, a lack of political will on the part of 
the administration to do exactly what it should have been doing 
according to the law passed by Congress.
    [Whereupon, at 3:52 p.m. the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                         

   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
